IN THE SUPREME COURT OF THE UNITED STATES
No 19-1298
CERTIFICATE OF COMPLIANCE
ROGERS COUNTY BOARD OF TAX ROLL
CORRECTIONS, a political subdivision; CATHY
PINKERTON BAKER, Rogers County Treasurer, in
her official capacity; and SCOTT MARSH, Rogers
County Assessor, in his official capacity,

Petitioners,
v.
VIDEO GAMING TECHNOLOGIES, INC.,

Respondent.
On Petition for a Writ of Certiorari
to the Oklahoma Supreme Court

As required by Supreme Court Rule 33.1(h), I certify
that the Brief in Opposition contains 6,296 words, excluding the
parts of the Brief in Opposition that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on July 20, 2020.

Kurt M. Rupert, OBA #11982
Counsel of Record for Respondent
HARTZOG CONGER CASON
201 Robert S. Kerr, Suite 1600
Oklahoma City, Oklahoma 73102
(405) 235-7000 (Telephone)
krupert@hartzoglaw.com

